No:
IN THE
SUPREME COURT OF THE UNITED STATES
OCTOBER TERM, 2020
DENARD STOKELING,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
CERTIFICATE OF SERVICE
I certify that on this 20th day of July 2020, in accordance with SUP. CT. R. 29,
one copy of the (1) Corrected Petition for Writ of Certiorari, (2) Motion for Leave to
Proceed In Forma Pauperis, (3) Certificate of Service, and (4) Declaration Verifying
Timely Filing, were served electronically with the Clerk of the Court using CM/ECF,
and filed by third party commercial carrier for delivery upon Noel Francisco, Solicitor
General of the United States, Room 5614, Department of Justice, 950 Pennsylvania
Avenue, N.W., Washington, D.C. 20530-0001.
MICHAEL CARUSO
Federal Public Defender
Fort Lauderdale, Florida
July 20, 2020

By:

s/Brenda G. Bryn
Brenda G. Bryn
Assistant Federal Public Defender
One East Broward Boulevard, Suite 1100
Fort Lauderdale, Florida 33301-1842
Telephone No. (954) 356-7436

